No. 19-416
IN THE

Supreme Court of the United States
NESTLÉ USA, INC.,
Petitioner,
v.
JOHN DOE I, et al.,
Respondents.

CERTIFICATE OF SERVICE
Pursuant to Supreme Court Rules 29.3 and 29.5(b), I, Neal Kumar Katyal, a
member of the Bar of this Court, hereby certify that on August 12, 2021, a copy of the
foregoing was served by e-mail and United States mail, postage prepaid to the following counsel:

Paul Lindsey Hoffman
Schonbrun Seplow Harris & Hoffman LLP
200 Pier Ave. STE 226
Hermosa Beach, CA 90254
hoffpaul@aol.com
Counsel for Respondents

Andrew J. Pincus
Mayer Brown LLP
1999 K Street, NW
Washington, DC 20006
apincus@mayerbrown.com
Counsel for Cargill, Inc.
I further certify that all parties required to be served have been served.

/s/ Neal Kumar Katyal
Neal Kumar Katyal

